>

I

!
Vll. Index To Appendices
Decision of the Nevada Court of Appeals

!

I

I
I

I

I

I

/

Appendix A

J

IN THE COURT OF APPEALS OF THE STATE OF NEVADA

HEATHER MATTHEWS, AN
INDIVIDUAL,
Appellant,
vs.
CALIFORNIA STATE UNIVERSITY, A
CALIFORNIA PUBLIC ENTITY,
Respondent.

No. 81120-COA
'

Cl
5f5S

a

a

SE2

ELIZABETH A. BROWN
CLERK Of SUPREME COURT
ay

^

DEPUTY CLERK

i

ORDER OF AFFIRMANCE
Heather Matthews appeals from a district court order of
dismissal and a post-judgment motion denying NRCP 60(b) relief. First
Judicial District Court, Carson City; James E. Wilson, Judge.
Matthews is an alumnus of respondent, California State
University (CSU), and graduated from the university with a master’s degree
in career counseling.

While at CSU, Matthews received a prestigious

academic award, and thereafter appeared in promotional material for the
university. However, Matthews’ relationship with CSU eventually soured,
leading to Matthews’ refusal to participate in any of CSU’s future
promotional efforts.
v

After graduating from CSU, Matthews authored a book that she

intended to publish through non-party Mill City Press,

However,

negotiations fell through and Mill City Press declined to publish the book.
Believing that this turn of events was due to CSU retaliating against her,
Matthews thereafter filed a complaint in district court alleging that CSU
‘'bribed” Mill City Press, and other corporations and individuals in Northern
Nevada, to interfere with and prevent her from publishing her book. In her
complaint, Matthews stated a cause of action for negligence, requested relief
jrt of

Appeals

OF

Nevada
1947B

under Nevada’s criminal statutes for “Harassment” and “Aggravated
Stalking,” and requested compensatory and punitive damages. "
Shortly after Matthews filed her complaint, CSU filed a motion
to dismiss under NRCP 12(b)(1) and NRCP 12(b)(5), arguing that the
doctrine of sovereign immunity, as applied by the United States Supreme
Court, in Franchise Tax Bd. of California u. Hyatt, 139 S. Ct. 1485 (2019),
bars Matthews’ suit against CSU, as the university is an arm of the state of
California. After full briefing on the matter, but without oral argument, the
district court granted the motion to dismiss with prejudice, concluding that
the doctrine of sovereign immunity barred Matthews’ suit.
Matthews immediately appealed the dismissal, and filed a post­
judgment motion for reconsideration, asking the district court to vacate its
order granting the motion to dismiss.

But her appeal was ultimately

dismissed for failure to pay the filing fee. See Matthews v. California State
University, Docket No. 79455 (Order Dismissing Appeal, October 1, 2019).
With regard to the post-judgment motion, after the motion was fully briefed,
the court denied that motion without oral argument.
Matthews subsequently filed a second post-judgment motion
seeking to vacate the dismissal order, which reiterated many of the same
arguments Matthews made in her initial opposition to the motion to
dismiss, argued that the district court incorrectly applied the law by
\

adopting CSU’s arguments, and requested NRCP 60(b) relief, i

CSU

opposed, and the district court eventually denied this motion on the grounds
that Matthews failed to present new law or facts that would warrant

!Matthews filed another notice of appeal while her second post­
judgment motion was pending, but this appeal was dismissed by the
supreme court for lack of jurisdiction due to the pending tolling motion. See
also Matthews v. California State University, Docket No. 79898, (Order
Dismissing Appeal, January 6, 2020).
rt of

Appeals

OF

Nevada
1947B

2

reconsideration. Matthews now appeals the order granting the motion to
dismiss, and the denial other second post-judgment motion for relief.
This court reviews a district court order granting a motion to
dismiss de novo. Buzz Stew, LLC v. City of N. Las Vegas, 124 Nev. 224,
<

227-28, 181 P.3d 670, 672 (2008) (reviewing a district court order granting
i

a motion to dismiss de novo and explaining that such an order will be upheld
“if it appears beyond a doubt that [the plaintiff] could prove no set of facts,
which, if true, would entitle it to relief’); Ogawa u. Ogawa, 125 Nev. 660,
667, 221 P.3d 699, 704 (2009) (reviewing subject matter jurisdiction de
novo).
In her informal brief, Matthews’ advances several arguments
contending that CSU is not entitled to sovereign immunity in this case. In
particular, Matthews argues that (1) interstate sovereign immunity is not
contemplated by the United States Constitution and that; (2) even if
sovereign immunity applied to California, CSU should not'be considered an
“arm of the state” so as to extend the protections of sovereign immunity.2
However, these arguments ignore the United States Supreme Court’s
holding in Hyatt, which held that the Constitution “affirmatively altered
the relationships between the states” and that “[e]ach State’s equal dignity
and sovereignty under the Constitution implies certain constitutional
‘limitation [s] on the sovereignty of all of its sister States.” 139 S. Ct. at
2Matthews’ also contends that Nevada’s Tort Claims Act allows
Nevada citizens to sue the State of California for certain intentional torts
and “criminal activities.” But this argument is inapposite, as the Nevada
Tort Claims Act is a limited waiver of Nevada’s sovereign immunity in this
state, and does not permit this State to refuse sovereign immunity to the
State of California. See NRS 41.031 (stating that l([t]he State of Nevada
hereby waives its immunity from liability and action and hereby consents
to have its liability determined in accordance with the same rules of law as
are applied to civil actions against natural persons and corporations”
(emphasis added)).
rt of

Appeals

of

Nevaoa
1947B

3

>

1497.

Accordingly, the Court held that “States retain their sovereign

immunity from private suits brought in the courts of other States.” Id. at
1492.
Additionally, “[i]t has long been settled that the [Eleventh
Amendment’s] reference to actions ‘against one of the United States’
encompasses not only actions in which a State is actually named as the
defendant, but also certain actions against state agents and state
instrumentalities.” Regents of the Univ. of California v. Doe, 519 U.S. 425,
429, 117 S. Ct. 900, 903, 137 L. Ed. 2d 55 (1997). And as relevant here, the
California State University Board of Trustees has traditionally enjoyed
sovereign immunity as an arm of the State of California. See Stanley v.
Trustees of California State University (9th Cir. 2006) 433 F.3d 1129, 1133
(holding that California State University “Trustees are an arm of the state
that can properly lay claim to sovereign immunity”); Jackson v. Hayakawa
(9th Cir. 1982) 682 F.2d 1344, 1350 (stating that the “University of
California and [its] Board of Regents are considered to be instrumentalities
of the state for purposes of the Eleventh Amendment”).
As CSU is an arm of the State of California, we conclude that
the district court properly dismissed Matthews’ complaint for lack of subject
matter jurisdiction under Franchise Tax Bd. of California v. Hyatt on
sovereign immunity grounds. See Rosequist v. Int'l Ass’n of Firefighters
■ Local 1$08, 118 Nev. 444, 448, 49 P.3d 651, 653 (2002), overruled on other
grounds by Allstate Ins. Co. v. Thorpe, 123 Nev. 565, 573 n.22, 170 P.3d 989,
995 n.22 (2007) (holding that the district court may properly dismiss a
complaint when a lack of subject matter jurisdiction is apparent on the face
of the complaint); NRCP 12(h)(3).
Because we conclude that the district did not err in dismissing
Matthews’ complaint for lack of subject matter jurisdiction, we further
conclude that the district court did not abuse its discretion-in denying
nr of Appeals
of

Nevaoa
1947B

4

Matthews’ post-judgment motion for relief from the dismissal order. Ford
v.. Branch Banking & Tr. Co., 131 Nev. 526, 528, 353 P.3d 1200, 1202 (2015)
(reviewing a district court’s decision to deny an NRCP 60(b) motion for an
abuse of discretion).3
Therefore, for the foregoing reasons, we

»

ORDER the judgment of the district court AFFIRMED.4

C.J.
Gibbons
i

J.

, J.
Bulla

Tao

cc:

Hon. James E. Wilson, District Judge
Heather Matthews
Robison, Sharp, Sullivan & Brust
Carson City Clerk

3To the extent that Matthews contends that the district court abused
its discretion by (1) adopting and signing a proposed order prepared by
CSU’s cpunsel; and (2) ruling on the motions without oral argument, we find
that these contentions are without merit in light of the rules of practice for
the First Judicial District Court. See FJDCR 3.10(a)(requiring "[a] party
filing a motion [to] attach to the motion an original proposed order”); FJDCR
3.12(a)(providing that “[djecisions will be rendered without oral argument
unless otherwise ordered by the court” (emphasis added)).
4Insofar as Matthews raises arguments that are not specifically
addressed in this order, we have considered the same and conclude that
they either do not present a basis for relief or need not be reached given the
disposition of this appeal. Further, in light of our resolution of this appeal,
we necessarily deny all pending requests for relief in this matter.
Court of Appeals
of

Nevada
(O) 1947B «n^^=>

5

(

Decision of the Nevada District Court

Appendix B

V
IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 79898

HEATHER MATTHEWS,
Appellant,
vs.
CALIFORNIA STATE UNIVERSITY,

.5

Respondent.

JAN 0 6 2020
BY-----

DSPOfYCLERKF

V

ORDER DISMISSING APPEAL
This is a pro se appeal from a district court order dismissing a
complaint. First Judicial District Court, Carson City; James E. Wilson,
i

Judge.
Review of the notice of appeal and documents before this court
reveals a jurisdictional defect.

It appears that appellant filed a timely

tolling motion on August 2, 2019. See NRAP 4(a)(4); AA Primo Builders,
LLC v. Washington, 126 Nev. 578, 585, 245 P.3d 1190, 1195 (2010)
(explaining when a post-judgment motion for reconsideration carries tolling
effect). Appellant prematurely filed the notice of appeal after the filing of
the tolling mbtion and before that motion was formally resolved.- 'See NRAP
4(a)(6). To date, it appears the motion remains pending in the district court.
Accordingly, this court lacks jurisdiction, see id. (“A premature notice of

'-.V-

SupremeCourt
of

Nevada
(O) 1947A
y:

\

AO 'OQt&i

appeal

does

not

divest the

district

court

of jurisdiction."),

and

ORDERS this appeal DISMISSED. 1
i

J

Pickering

J.

, j.
Cadish

Hon. James E. Wilson, District Judge
Heather Matthews
Robison, Sharp, Sullivan & Brust
Carson City Clerk

cc:

i

t

' j i »'*

. i' •

..

' r

v

j

i

r

T

/ VI

v

✓

i * •

f/
\ 'p;

// u

„ /

'

1

*

v
1

Appellant may file a new notice of appeal once the district court
enters a written order resolving the August 2, 2019, motion.
The requests for relief made in appellant’s pro se filings are denied.
Supreme Court
OF

Nevada

2

(O) 1947A

]

I

1
2
3

Michael A. Burke, Esq. (SBN 11527)
Hannah E. Winston, Esq. (SBN 14520)
ROBISON, SHARP, SULLIVAN & BRUST
71 Washington Street
Reno, Nevada 89503
Telephone: (775) 329-3151

riEC'D & FILED
2fl2B MAR 1

AH II* 57

4

5

Attorneys for Defendant
Board of Trustees of the California State University

6
7

FIRST JUDICIAL DISTRICT COURT

8

CARSON CITY, STATE OF NEVADA

9

HEATHER MATTHEWS, an individual,
Plaintiff,

10
11
12

Case No.: 19TRT000371B
Dept. No.: II

vs.
CALIFORNIA STATE UNIVERSITY, a
California Public Entity,
Defendant.

13
14
15

ORDER DENYING PLAINTIFFS TOLLING MOTION

16

rFRQPQSEOV

17

On August 2,2019, Plaintiff Heather Matthews (“Plaintiff”) filed a motion requesting

18

this Court to “stay execution of judgment” and vacate this Court’s Order dismissing the

19

Complaint filed against Defendant Board of Trustees of The California State University’s

20

(“CSU”). On August 13, 2019, CSU filed an Opposition to Plaintiffs Motion to Vacate

21

Order. In her Motion, Plaintiff appears to seek to vacate this Court’s Order on CSU’s

22

Motion to Dismiss under the guise of NRCP 60.

23

an opportunity to be heard in this case. Plaintiffs position is flawed for several reasons.

24

\

Plaintiff argues that she was deprived

First, Plaintiff had an opportunity to oppose CSU's Motion to Dismiss. In fact,

25

Plaintiff filed a late Opposition to CSU’s Motion to Dismiss. Despite her Opposition

26

being late, it was still considered by the Court in response to the Motion; thus, Plaintiff

27

was heard on the issues. Secondly, there is no basis to “present your case” in

28

response to a Motion to Dismiss. CSU’s Motion to Dismiss involved a pure legal issue

I

I

1

concerning CSU's 11th Amendment Sovereign Immunity and the recent U.S. Supreme

2

Court Ruling in Franchise Tax Bd. of California v. Hyatt, 139 S. Ct. 1485, 1493 (2019).

3

Third, Plaintiffs Request to Substitute a Judge was improper, and even if it was

4

intended to be a peremptory challenge, it was brought after a ruling on the case had

5

been handed down by this Court; thus, it was untimely. See SCR 48.1.

6

Additionally, while the instant Motion cites no law, the contemporaneously filed

7

Declaration of Plaintiff does reference NRCP 60. As such, the Court is left to speculate

8

that Plaintiffs Motion was intended to be a NRCP 60 Motion to Vacate the Order.

9

NRCP 60(b) provides:

10

(b) Grounds for Relief From a Final Judgment, Order, or
Proceeding. On motion and just terms, the court may relieve
a party or its legal representative from a final judgment, order,
or proceeding for the following reasons:

11
12
13

(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence,
could not have been discovered in time to move for a new trial
under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged;
it is based on an earlier judgment that has been reversed or
vacated; or applying it prospectively is no longer equitable; or
(6) any other reason that justifies relief.

14
15
16
17
18
19
20

Plaintiffs Motion unequivocally fails under all subparts of NRCP 60(b). In fact,

21

Plaintiffs Motion does not even cite a basis under NRCP 60(b) that her Motion could, or

22

should, be granted. Plaintiff fails to identify any mistake, inadvertence, surprise,

23

excusable neglect, fraud, or newly discovered evidence which would warrant vacating

24

the Order. CSU was dismissed from the above-captioned case with prejudice pursuant

25

to a timely filed Motion to Dismiss.

26
27

28

Therefore, upon submission of the Tolling Motion to this Court, and good cause
appearing:
THE COURT FINDS: CSU’s Motion to Dismiss was predicated on the purely legal

(

V

1

issue of Sovereign Immunity provided to an arm of the State of California which prevents

2

it from being sued in a Nevada State Court by a Nevada citizen.

3

THE COURT FURTHER FINDS: In response to the Motion to Dismiss, Plaintiff

4

filed an untimely Opposition which was still considered by this Court. Thus, Plaintiff had

5

a full opportunity to oppose CSU’s position, and she did so. After full briefing, CSU’s

6

Motion was granted.

i

7
8
9
10
11

THE COURT THEREFORE FINDS: There is no basis for granting relief under
NRCP 60(b).
Accordingly,
IT IS HEREBY ORDERED that Plaintiffs tolling motion, request to vacate order,
and request to stay execution of judgment, are DENIED.

12

IT IS SO ORDERED.

13

DATED this

i

I 3 day of 'TiJ

2020.

k

14

DISTRICT JUDGE

15
16
17
18
19
20
21
22
23

i

&

Submitted this^^day of March 2020 by:
ROBISON, SHARP, SULLIVAN & BRUST
71 Washington Street
Reno J$V M503
r*
Mtthael A. Burke, Esq.
Hannah E. Winston, Esq.
Attorneys for Defendant Board of Trustees of
of the California State University

24
25
26
27
28

3

i.

.1

1

REC’D & FtLtb

Michael A. Burke, Esq. (SBN 11527)
Hannah E. Winston, Esq. (SBN 14520)
ROBISON, SHARP, SULLIVAN & BRUST
71 Washington Street
Reno, Nevada 89503
Telephone: (775)329-3151

2
3
4

2028 RPR 23 PM 5’- 52

3T

Attorneys for Defendant
Board of Trustees of the California State University

5
6

FIRST JUDICIAL DISTRICT COURT

7

CARSON CITY, STATE OF NEVADA

8

HEATHER MATTHEWS, an individual
Plaintiff,

9

OEPHTY

Case No.: 19TRT000371B
Dept. No.: II

vs.

' 10

CALIFORNIA STATE UNIVERSITY, a
California Public Entity,

11
12

Defendant.

13
14

ORDER DENYING PLAINTIFFS MOTION FOR RECONSIDERATION

15

—fPROPOSEPf^

i

16

On March 20, 2020, Plaintiff Heather Matthews (“Plaintiff’) filed a motion

17

requesting this Court to reconsider its March 16, 2020 Order Denying Plaintiffs Motion to

18

“Stay Execution of Judgment” concerning the dismissal of the Complaint filed against

19

Defendant Board of Trustees of The California State University’s (“CSU").1 On March 27,

20

2020, CSU filed an Opposition to Plaintiffs Motion for Reconsideration. In her Motion for

21

Reconsideration,, rather than seek reconsideration of the Order Denying Plaintiffs Tolling

22

Motion, Plaintiff appears to seek to vacate this Court’s Order on CSU’s Motion to Dismiss.

23

In this regard, Plaintiff argues that she was deprived an opportunity to be heard in this

24

case.

25

Upon review of all briefs submitted in support and opposition to Plaintiffs Motion

26

for Reconsideration, Plaintiff has failed in any way to present any new facts or laws which

27
28

1

Plaintiffs Motion for Reconsideration Refers to the “Stay of Execution of Judgment" Motion as her
“Tolling Motion.”
i

1

would warrant this Court reconsidering its March 16, 2020 Order Denying Plaintiff’s

2

Tolling Motion.

3

Reconsideration as a basis to revisit this Court’s Order Dismissing CSU with Prejudice.

4

CSU’s Motion to Dismiss involved a pure legal issue concerning CSU’s 11th Amendment

5

Sovereign Immunity and the recent U.S. Supreme Court Ruling in Franchise Tax Bd. of

6

California v. Hyatt, 139 S. Ct. 1485, 1493 (2019). This Court will not, and does not,

7

entertain Plaintiffs attempts to reargue an Order granting CSU’s Motion to Dismiss which

8

was issued over eight (8) months ago.

9
10
11

Rather, Plaintiff impermissibly has used the filing of a Motion for

i

Therefore, upon submission of Plaintiffs Motion for Reconsideration to this Court,
and good cause appearing:
THE COURT FINDS: Plaintiff has impermissibly used the instant Motion for

12

Reconsideration as an attempt to reargue the Jujy_24,.20_19 Order Granting CSU’s Motion^

13

to Dismiss.

14

Sovereign Immunity provided to an arm of the State of California which prevents it from

15

being sued in a Nevada State Court by a Nevada citizen.

CSU’s Motion to Dismiss was predicated on the purely legal issue of

16

THE COURT FURTHER FINDS: Plaintiff has presented no new law or facts upon

17

which relief could, or should, be given in reconsideration of this Court’s Order Denying

18

Plaintiffs Tolling Motion.

19

Accordingly,

20

IT IS HEREBY ORDERED that Plaintiffs Motion for Reconsideration is DENIED.

21

DATED this

day of

Qjffjy_1

2020.

22
23
DISTRICT JUDGE
24
25

26
27

28

i

Submitted this 27th day of March 2020 by:
ROBISON, SHARP, SULLIVAN & BRUST
71 Washington Street
Reno, NV 89503
/s/ Michael A. Burke----------------------- ----------Michael A. Burke, Esq.
Hannah E. Winston, Esq.
Attorneys for Defendant Board of Trustees of the California State University

J

Decision of the Nevada Supreme Court Denying Review

V

Appendix C

.*
I

IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 81120

HEATHER MATTHEWS, AN
INDIVIDUAL,
Appellant,
VS.

CALIFORNIA STATE UNIVERSITY, A
CALIFORNIA PUBLIC ENTITY,
Respondent.

JUL 0 6. 2021
__

CLERI"
0Y_ DEPUTY clerk

i

ORDER DENYING PETITION FOR REVIEW
Review denied. NRAP 40B.
It is so ORDERED.1

jLudt.-v

t

r)

C.J.

Hardesty

1
Parraguirre

5SJ.

JCadish

Aik

, J.

Stiglich
, J.
Silver
i

J.

J.
Pickering

Herndon

1 In light of this order, no action will be taken on the letter filed by
the appellant on June 28, 2021.
Supreme Court
of

Nevada

7 vl^3l\

t

Order of Nevada Supreme Court Denying Rehearing

i

Appendix D

■r

IN THE SUPREME COURT OF THE STATE OF NEVADA

HEATHER MATTHEWS, AN
INDIVIDUAL,
Appellant,

No. 81120
tp.’ a R

VS.

CALIFORNIA STATE UNIVERSITY, A
CALIFORNIA PUBLIC ENTITY,
Respondent.
ORDER DENYING MOTION

iasa

JUL 2 6 2021
EU7/BjfTH A. BROWN
CLEfybr/SUPgH^ECg*

3Y JL 9 *

iEF DEF»UTY CLERK

On April 16, 2021, the Court of Appeals entered an order of
affirmance in this appeal.

The Court of Appeals subsequently denied

rehearing. On July 6, 2021, this court denied appellant’s petition for review
and the remittitur issued on that same date. See NRAP 41(b)(2) (the clerk
i

of this court shall issue the remittitur upon issuance of an order denying a
petition for review). Appellant has now filed a motion asking this court to
reinstate her appeal. The motion is construed as a motion to recall the
remittitur and reinstate this appeal.
Appellant argues that her appeal should be reinstated because
her case was not presented to this court in its entirety.

Specifically,

appellant asserts a clerk in this office intentionally removed page 10 from
her petition for review filed on June 25, 2021, and therefore, this court did
not consider or address the claims she raised on that page. On June 28,
2021, appellant filed a letter in which she made a similar assertion
regarding a missing page 10. The letter included a copy of the page 10
appellant asserts was intentionally removed from her petition for review.
Appellant’s assertion that her case was not presented to this
court in its entirety has no merit. Page 10 was included in the petition for
review that was filed in this court on June 25, 2021, and it is identical to
Supreme Court
of

Nevada
(O) 1947A

the page 10 appellant included in her June 28, 2021, letter.1

Accordingly >

the motion to recall the remittitur and reinstate this appeal is denied.
It is so ORDERED.
i

C.J.
Hardesty

cc:

Hon. James E. Wilson, District Judge
Heather Matthews
Robison, Sharp, Sullivan & Brust
Carson City Clerk

!

I

\
i

I

!An identical page 10 was also included in the petition for rehearing
that was filed in the Court of Appeals on April 26, 2021.
Supreme Court
OF

Nevada

2

(O) 1947A

Wb
\

I

t
I

t

Additional material
from this filing is
available in the
Clerk's Office.

*

